No.
In The

Supreme Court of the United States
OCTOBER TERM 2020

JUSTIN MERTIS BARBER,

Petitioner,
V.

SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS, FLORIDA ATTORNEY GENERAL,
Respondent.

On Petition for a Writ of Certiorari to the

Eleventh Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI
WILLIAM MALLORY KENT

Florida Bar No. 0260738

24 North Market Street, Suite 300
Jacksonville, Florida 32202
(904) 398-8000 Telephone
(904) 348-3124 Fax

kent@williamkent.com Email
Counsel for Petitioner Barber

QUESTION PRESENTED
WHETHER THE ELEVENTH CIRCUIT COURT OF APPEALS
ERRED IN DENYING BARBER'S MOTION FOR LEAVE TO FILE A
MOTION FOR A CERTIFICATE OF APPEALABILITY FINDING
THAT BARBER'S UNDERLYING PETITION FOR HABEAS

CORPUS

WAS

BARRED BY THE

LIMITATIONS, 28 U.S.C. § 2244(d)?

ONE-YEAR STATUTE

OF

LIST OF PARTIES

Justin Mertis Barber, Petitioner

Attorney General of the State of Florida, Respondent

II

TABLE OF CONTENTS

QUESTION PRESENTED

i

LIST OF PARTIES

ii

TABLE OF CONTENTS

iii

TABLE OF CITATIONS

iv

OPINION BELOW

1

JURISDICTION

2

CONSTITUTIONAL PROVISIONS INVOLVED

2

FEDERAL STATUTE INVOLVED

2

PROCEDURAL HISTORY AND FACTS PERTINENT TO THIS PETITION

3

ARGUMENT IN SUPPORT OF GRANTING THE WRIT

6

CONCLUSION

10

111

TABLE OF CITATIONS
CASES

Artuz VBennett, 531 U.S. 4 (2000)

7,9

Coleman v. Thompson, 501 U.S. 722, 115 L. Ed. 2d 640, 111 S. Ct. 2546 (1991)...8
Habteselassie v. Novak, 209 F.3d 1208, 1210-1211 (CA10 2000)

7

Lovaszv. Vaughn, 134 F.3d 146, 148 (CA3 1998)

7

Martin v. District ofColumbia Court ofAppeals

7

O'Sullivan v. Boerckel, 526 U.S. 838, 839-840, 144 L. Ed. 2d 1, 119 S. Ct. 1728

(1999)

9

Slack V. McDaniel, 529 U.S. 473,478 (2000)

6

United States v. Lombardo, 241 U.S. 73, 76, 60 L. Ed. 897, 36 S. Ct. 508 (1916)...7

Villegas V. Johnson, 184 F.3d 467, 469-470 (CA5 1999)

7

Wainwright v. Sykes, 433 U.S. 72, 53 L. Ed. 2d 594, 97 S. Ct. 2497 (1977)

8

STATUTES

28U.S.C.§ 1254

2

28 U.S.C. § 2244

2,6,8

IV

In The

Supreme Court of the United States
October Term, 2020

JUSTIN MERTIS BARBER,
Petitioner^
V.

SECRETARY, FLORIDA DEPARTMENT OF
CORRECTIONS, FLORIDA ATTORNEY GENERAL,
Respondent.

On Petition for a Writ of Certiorari to the

Eleventh Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI

The Petitioner, Justin Mertis Barber, respectfully prays that a writ ofcertiorari
be issued to review the decision of the United States Court of Appeals for the
Eleventh Circuit in this case.

OPINION BELOW

The decision and order of the Eleventh Circuit as well as the underlying
district court order are included in the Appendix, infra.

JURISDICTION

This Court has jurisdiction to review the decision of the United States Court

of Appeals for the Eleventh Circuit pursuant to Title 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISIONS INVOLVED

The Due Process Clause of the Fifth Amendment to the United States

Constitution provides:

No person shall be held to answer for a capital, or otherwise infamous
crime ... without due process of law.
FEDERAL STATUTE INVOLVED

28 U.S.C. § 2244 - Finality of Determination
(d)

(1) A 1-year period of limitation shall apply to an application for a writ of
habeas corpus by a person in custody pursuant to the judgment of a State court.
The limitation period shall run from the latest of—
(A)the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such review;
(B)the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the United
States is removed, if the applicant was prevented from filing by such
State action;

(C)the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively applicable to

cases on collateral review; or

(D)the date on which the factual predicate of the claim or claims

presented could have been discovered through the exercise of due
diligence.

(2)The time during which a properly filed application for State postconviction or other collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any period of limitation
under this subsection.

PROCEDURAL HISTORY AND FACTS PERTINENT TO THIS PETITION

Barber filed his initial 3.850 in October 2010 based on claims of ineffective

assistance of counsel on October 2, 2010. The state circuit court entered an order

denying the initial 3.850 motion April 18, 2013 and an order denying Barber's
motion for rehearing on May 10, 2013. At the time of the filing and circuit court

litigation of the initial 3.850 motion. Barber had no knowledge of any juror
misconduct.

Barber's undersigned counsel, William Kent, was contacted by Timothy
Faircloth December 14, 2012 and in a telephone conversation initiated by Haircloth

that day, counsel Kent for the first time was informed in general terms about the
juror misconductofjuror Steder,Juror 161.The exact date ofcounsel learning about
the juror misconduct was memorialized in an email sent by counsel for Barber, Kent,
to Barber's trial counsel, Robert Willis and Lee Hutton, the very same day that

Faircloth contacted Kent. At that point in time the appeal of the initial 3.850 motion

was pending, the notice of appeal in that matter having been filed within thirty days
of the order denying rehearing.

Therefore at that point the state lower tribunal lacked jurisdiction to consider

any newly discovered evidence claim - Barber could not file a second 3.850 motion
while the appeal of his first 3.850 motion was pending.
After investigating the claim. Barber filed with the Florida Fifth District Court

of Appeal October 1, 2013 a motion to stay the appeal and relinquish jurisdiction to
pursue a juror interview and litigate the juror claim at the lower tribunal. The Florida
Fifth District Court of Appeal denied Barber's motion to stay and relinquish

jurisdiction by order entered October 15, 2013. The first 3.850 appeal then

proceeded to conclusion (Fifth DCA Appeal Number 5D13-2093) by entry of the
mandate September 23, 2014.

To preserve his federal habeas time limit. Barber promptly filed on August
13, 2014 the second 3.850 motion (the juror misconduct motion) after entry of the

per curiam affirmed decision of the Fifth District Court of Appeal affirming the
denial of the first 3.850 motion, but prior to entry of the mandate on that appeal.

Thus, Barber had a post-conviction motion pending, or an appeal of a post-

conviction motion pending, non-stop fi-om the date of the timely filing of his first

3.850 motion. The trial court entered a written order denying the second 3.850
motion and Barber timely appealed the denial to the Fifth District Court of Appeal.
The District Court ofAppeal per curiam affirmed the trial court's denial on February

16,2016. The mandate was issued April 6,2016. Meanwhile Barber filed his federal
habeas petition on March 1, 2016.
The district court held that Barber's petition was untimely unless Barber could

establish that his August 13, 2014 second Rule 3.850 motion tolled the limitations
period until Barber filed his federal petition. [Order Denying 2254 petition, pgs. 13-

14]. The district court held that Barber's second 3.850 motion did not toll the

AEDPA's tolling provision based on the federal district court's own interpretation
of Florida law as it pertains to the exercise of due diligence with regard to the new
evidence. [Id. at 19]. The district court held that, because of his determination that
Barber's second 3.850 was untimely under Florida law, "his motion was not properly

filed pursuant to AEDPA's tolling provision, and, therefore, his Petition is timebarred." [Id.].

Barber timely filed a motion for leave to file a motion requesting a certificate

of appealability at the Eleventh Circuit Court of Appeals and received an order
denying his motion on June 16, 2020 which stated only:
To merit a COA, Barber must show that reasonable jurists would find

debatable both (1) the merits of an underlying claim, and (2) the
procedural issues that he seeks to raise. 28 U.S.C. § 2253(c)(2); Slack
V. McDaniel, 529 U.S. 473, 478 (2000). Because Barber's petition is
barred by the one-year statute of limitations, 28 U.S.C. § 2244(d), and
he has not shown that he is entitled to equitable tolling, he has failed to
satisfy the second prong of Slack's test. The motion for a COA is
DENIED.

[Order Denying Motion for Leave to File a Motion for a Certificate ofAppealability,
pg. 2]. Barber timely moved for reconsideration of the order which was denied on
July 20,2020.
ARGUMENT IN SUPPORT OF GRANTING THE WRIT

I.

WHETHER THE ELEVENTH CIRCUIT COURT OF APPEALS
ERRED IN DENYING BARBER'S MOTION FOR LEAVE TO FILE A
MOTION FOR A CERTIFICATE OF APPEALABILITY FINDING
THAT BARBER'S UNDERLYING PETITION FOR HABEAS
CORPUS WAS BARRED BY THE ONE-YEAR STATUTE OF

LIMITATIONS, 28 U.S.C. § 2244(d)?

The district court denied Barber's 2254 petition as untimely based on its

finding that under Florida law. Barber's second 3.850 motion alleging newly
discovered evidence did not toll Barber's time for filing his habeas petition under 28

U.S.C. § 2244 because, according to the federal district court judge. Barber did not

use due diligence in presenting the claim to the state court and therefore Barber's
second 3.850 motion was not properly filed for purposes of § 2244 tolling. The

Eleventh Circuit Court of Appeals affirmed this result when it denied Barber's

motion for leave to request certificate of appealability.
This holding directly conflicts with this Court's decision in Artuz v Bennett,
531 U.S. 4 (2000). In Artuz this Court addressed the question "whether an
application for state postconviction relief containing claims that are procedurally
barred is 'properly filed' within the meaning of [28 U.S.C. § 2244]."

at 5. This

Court held as follows:

Petitioner contends here, as he did below, that an application for state

postconviction or other collateral review is not "properly filed" for
purposes of § 2244(d)(2) unless it complies with all mandatory statelaw procedural requirements that would bar review of the merits of the
application. We disagree.

An application is "filed," as that term is commonly understood, when it
is delivered to, and accepted by, the appropriate court officer for
placement into the officialrecord. See, e.g.. UnitedStates v. Lombardo,
241 U.S. 73, 76, 60 L. Ed. 897, 36 S. Ct. 508 (1916) ("A paper is filed
when it is delivered to the proper official and by him received and

filed"); Black's Law Dictionary 642 (7th ed. 1999) (defining "file" as
"to deliver a legal document to the court clerk or record custodian for
placement into the official record"). And an application is "properly
filed" when its delivery and acceptance are in compliance with the
applicable laws and rules governing filings. These usually prescribe,
for example, the form ofthe document, the time limits upon its delivery,
the court and office in which it must be lodged, and the requisite filing

fee. See, e.g., Habteselassie v. Novak, 209 F.3d 1208, 1210-1211
(CAIO 2000); 199 F.3d at 121 (case below); Villegas v. Johnson, 184
F.3d 467, 469-470 (CA5 1999); Lovasz v. Vaughn, 134 F.3d 146, 148
(CA3 1998). In somejurisdictions the filing requirements also include,
for example, preconditions imposed on particular abusive filers, of.
Martin v. District ofColumbia Court ofAppeals, 506 U.S. 1,121 L. Ed.

2d 305, 113 S. Ct. 397 (1992) (per curiam), or on all filers generally,
cf. 28 U.S.C. § 2253(c) (1994 ed., Supp. IV) (conditioning the taking
of an appeal on the issuance of a "certificate of appealability"). But in
common usage, the question whether an application has been "properly
filed" is quite separate from the question whether the claims contained
in the application are meritorious and free of procedural bar.

Petitioner contends that such an interpretation of the statutory phrase
renders the word "properly," and possibly both words ("properly
filed"), surplusage, since if the provision omitted those words, and

tolled simply for "the time during which an . . . application for State
post-conviction [relief] is pending," it would necessarily condition
tolling on compliance with filing requirements of the sort described
above. That is not so. If, for example, an application is erroneously
accepted by the clerk of a court lacking jurisdiction, or is erroneously

accepted without the requisite filing fee, it will be pending, but not
properly filed.

Petitioner's interpretation is flawed for a more fundamental reason. By
construing "properly filed application" to mean "application raising
claims that are not mandatorily procedurally barred," petitioner elides
the difference between an "application" and a "claim." Only individual
claims, and not the application containing those claims, can be

procedurally defaulted under state law pursuant to our holdings in
Coleman v. Thompson, 501 U.S. 722, 115 L. Ed. 2d 640, 111 S. Ct.
2546 (1991), and Wainwright v. Sykes, 433 U.S. 72, 53 L. Ed. 2d 594,
97 S. Ct. 2497 (1977), which establish the sort of procedural bar on

which petitioner relies. Compare HN6 § 2244(b)(1) ("A claim
presented in a second or successive habeas corpus application under
section 2254 that was presented in a prior application shall be
dismissed") with HN7 § 2244(b)(3)(A) ("Before a second or successive

application permitted by this section is filed in the district court, the
8

applicant shall move in the appropriate court of appeals for an order
authorizing the district court to consider the application" (emphases
added)). See also O'Sullivan v. Boerckel, 526 U.S. 838, 839-840, 144
L. Ed. 2d 1,119 S. Ct. 1728 (1999) ("In this case, we are asked to decide
whether a state prisoner must present his claims to a state supreme court
in a petition for discretionary review in order to satisfy the exhaustion
requirement" (emphases added)). Ignoring this distinction would
require judges to engage in verbal gymnastics when an application
contains some claims that are procedurally barred and some that are

not. Presumably a court would have to say that the application is
"properly filed" as to the nonbarred claims, and not "properly filed" as
to the rest. The statute, however, refers only to "properly filed"

applications and does not contain the peculiar suggestion that a single
application can be both "properly filed" and not "properly filed."
Ordinary English would refer to certain claims as having been properly
presented or raised, irrespective of whether the application containing
those claims was properly filed.

Artuz VBennett, 531 U.S. 4, 5 (2000). The district court did not find that Barber's
second 3.850 motion was not properly filed with the appropriate state court, but

rather it made an independent determination that the claim raised in that 3.850

motion was procedurally barred. Basedon the holding ofArtuz, the districtcourtand

courtofappeals decisions holding thatBarber's second 3.850, despite being properly
filed, did not toll the federal time period for filing his habeas petition must be
reversed as they are contrary to binding Supreme Court Precedent and have denied
Barber due process of law.

CONCLUSION

WHEREFORE, the Petitioner, Justin Mertis Barber, respectftilly requests this
Honorable Court grant this petition for certiorari.
Respectfully submitted,

KENT & McFARLAND,
ATTORNEYS AT LAW.

WILLIAM MALLORY KENT

Florida Bar No. 0260738

24 North Market Street, Suite 300
Jacksonville, Florida 32202
(904) 398-8000
(904) 348-3124 Fax
kent@willianikent.com

10

